Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   HOW INFLATED PUBLISHED 

     PRICES AFFECT DRUGS 

     CONSIDERED FOR THE

   FEDERAL UPPER LIMIT LIST





                    Daniel R. Levinson

                    Inspector General 


                     September 2005

                     OEI-03-05-00350

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to the HHS, Congress,
and the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                         S U M M A R Y                                              



                      OBJECTIVE
                      To determine (1) the extent to which the mandated method for
                      calculating Medicaid Federal upper limit amounts causes qualified
                      products to be excluded from the Federal upper limit list and (2) the
                      potential financial implications of these exclusions to Medicaid.


                      BACKGROUND
                      The Federal upper limit program was put in place to ensure that the
                      Federal Government acts as a prudent payer by taking advantage of
                      current market prices for multiple-source drugs. Statutory and
                      regulatory criteria generally require the Centers for Medicare &
                      Medicaid Services (CMS) to include a drug on the Federal upper limit
                      list if: (1) at least three versions of the drug are rated as therapeutically
                      equivalent by the Food and Drug Administration (FDA), and (2) the
                      drug has at least three suppliers listed in current editions of national
                      compendia. The Federal upper limit amount for a drug is set at
                      150 percent of the published price for the least costly, therapeutically
                      equivalent product found in national compendia plus a reasonable
                      dispensing fee.

                      CMS applies an additional standard in determining which drugs should
                      be subject to Federal upper limits. According to CMS staff, only drugs
                      for which a Federal upper limit could potentially lead to savings should
                      be included on the Federal upper limit list. Therefore, if a drug does not
                      have a published price that, when multiplied by 150 percent, is lower
                      than the average wholesale price (AWP) (upon which reimbursement is
                      typically based), CMS does not include the product.

                      For the covered outpatient drugs of a manufacturer to be eligible for
                      Federal matching funds under Medicaid, section 1927(a)(1) of the Social
                      Security Act mandates that the manufacturer must enter into a rebate
                      agreement with CMS and pay quarterly rebates to State Medicaid
                      agencies. Under these rebate agreements and the law, manufacturers
                      must provide CMS with the average manufacturer prices (AMP) for
                      each of their covered drugs on a quarterly basis. Pursuant to Federal
                      statute, the AMP is the average price paid to a manufacturer for a drug
                      in the United States by wholesalers for drugs distributed to the retail
                      pharmacy class of trade, net of customary prompt pay discounts. The
                      Medicare Prescription Drug, Improvement, and Modernization Act of

OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   i
E X E C U T I V E                            S U           M M A R Y


                       2003 recognizes the AMP as a potential measure to be substituted in
                       Medicare reimbursement calculations.

                       For each drug product approved between 2001 and 2003 that met all
                       statutory and regulatory criteria for inclusion on the Federal upper
                       limit list but did not meet CMS’s additional criterion, we calculated the
                       minimum AMP, average AMP, and maximum AMP in the first and
                       second quarters of 2004. To follow current procedures prescribed by
                       Federal regulation, we limited the calculation to products that (1) were
                       rated therapeutically equivalent by FDA and (2) were available in the
                       most commonly listed package size. We also limited the analysis to
                       products with Medicaid utilization in the first two quarters of 2004.

                       To determine the potential implications if CMS were able to use AMPs
                       rather than published prices to set Federal upper limit amounts, we:
                       (1) multiplied the minimum, average, and maximum AMPs for the
                       reviewed drugs by 150 percent (the percentage stated in current
                       regulation); (2) subtracted 150 percent of the minimum, average, and
                       maximum AMPs from the average Medicaid reimbursement amount
                       (less the dispensing fee) in each of the first two quarters of 2004; and
                       (3) multiplied the difference calculated in step two by the number of
                       units of the drug product reimbursed during these quarters. This figure
                       provided us with the savings that could have resulted in just two
                       quarters for drugs that were not included on the Federal upper limit list
                       due to issues with their published prices.


                       FINDINGS
                       In the first two quarters of 2004, 58 drug products that met all
                       statutory and regulatory requirements were not added to the Federal
                       upper limit list due to inflated published prices. Of the 252 first-time
                       generic drug products approved between 2001 and 2003, 58 met all
                       statutory and regulatory requirements as of June 30, 2004, but were not
                       included on the Federal upper limit list because their addition would
                       not have lead to savings. Each of these 58 products had at least
                       3 A-rated versions and 3 suppliers, but did not have a published price
                       that when multiplied by 150 percent was less than the AWP.

                       Overall, average AWPs were more than three times higher than the
                       average AMPs for the reviewed drug products. Even the minimum
                       published prices for these drugs were substantially higher than the


 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   ii
E X E C U T I V E                            S U           M M A R Y


                       average AMP. Given that Federal law requires that these “minimum”
                       published prices be multiplied by 150 percent, the difference between
                       Federal upper limit amounts and AMPs would grow even wider.
                       Basing Federal upper limit amounts on AMPs could save Medicaid
                       over $100 million per year by allowing otherwise qualified products
                       to be included on the Federal upper limit list. As the previous finding
                       shows, inflated published prices are causing CMS to exclude otherwise
                       qualified drug products from the Federal upper limit list because their
                       Federal upper limit amount would exceed the reimbursement amount
                       set under the usual methods. However, if Medicaid based Federal upper
                       limit amounts on 150 percent of the average reported AMP rather than
                       150 percent of the lowest published price, the program may have saved
                       $75 million in just two quarters of 2004 due to these excluded drugs
                       being added to the Federal upper limit list. Furthermore, if Medicaid
                       could have used the lowest reported AMP multiplied by 150 percent
                       when calculating Federal upper limit amounts, the program would have
                       saved an estimated $111 million in the first and second quarters of 2004
                       for these drugs. Even if Federal upper limit calculations were based on
                       150 percent of the highest reported AMP, the program would have saved
                       almost $39 million.


                       CONCLUSION
                       In the past several months, the President, Congress, and individual
                       State Medicaid programs have expressed heightened interest in
                       ensuring that Medicaid drug reimbursement amounts more closely
                       resemble actual acquisition costs. In addition, the Office of Inspector
                       General (OIG) has recently released a number of reports that once again
                       showed that the published prices used as the basis for Medicaid
                       reimbursement bear little or no resemblance to prices based on actual
                       sales, especially for generic drugs. The Federal upper limit program is
                       particularly affected by this disconnect between published prices and
                       acquisition costs among generic drugs.

                       Congress created the Federal upper limit program to help Medicaid take
                       advantage of current market prices for lower-cost generic drugs.
                       However, Federal regulation requires that Federal upper limit amounts
                       be based on 150 percent of the prices published in national compendia.
                       Not only does the pricing methodology prescribed by Federal law cause
                       artificially high Federal upper limit amounts for those products on the

 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   iii
E X E C U T I V E                            S U           M M A R Y


                       Federal upper limit list, it also causes other qualified drugs to never be
                       included on the list in the first place. This secondary effect is costing
                       Medicaid millions of dollars per year, in addition to the considerable
                       losses the program faces due to the inflated prices of drugs already on
                       the Federal upper limit list.

                       Based on years of work by OIG, the Government Accountability Office,
                       and others revealing the inflated nature of AWPs and other published
                       prices, the Medicare program eliminated the use of AWP in its pricing
                       methodology for Part B covered drugs. The fact that Medicaid still uses
                       these published prices to determine Federal upper limit amounts makes
                       little sense. We believe that reimbursement in general and Federal
                       upper limit amounts in particular should reliably reflect the actual costs
                       of drugs to pharmacies. Consequently, there is an urgent need for the
                       Medicaid policymaking community to revise Federal upper limit
                       policies, thereby ensuring that reimbursement amounts for generic
                       drugs accurately reflect market prices, and that the Federal upper limit
                       program better meets its original intent.
                       Agency Comments
                       CMS concurred with our findings, stating that the use of published
                       prices as the basis for Federal upper limit amounts precludes the
                       addition of some drugs to the Federal upper limit list. CMS also noted
                       the recent changes to the basis of reimbursement for Medicare drugs
                       made by the Medicare Prescription Drug, Improvement, and
                       Modernization Act of 2003, and indicated that the same types of
                       measures should be enacted for Medicaid. The full text of CMS’s
                       comments is presented in Appendix A.




 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   iv
Δ   T A B L E                        O F                  C O N T E N T S                                                  




                  EXECUTIVE SUMMARY ........................................                                                                                                   i




                  INTRODUCTION ................................................ 1




                  FINDINGS

                                Fifty-eight drugs were not added to list due to inflated prices . . . . 9 


                                Current calculation method could be costing Medicaid millions . . . 9 




                  C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




                  APPENDIX
                                A : Centers for Medicare & Medicaid Services Comments. . . . . . . 13




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 





OEI-03-05-00350       H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   v
Δ      I N T R O D U C T I O N                                                        




                          OBJECTIVE
                          To determine (1) the extent to which the mandated method for
                          calculating Medicaid Federal upper limit amounts causes qualified
                          products to be excluded from the Federal upper limit list and (2) the
                          potential financial implications of these exclusions to Medicaid.


                          BACKGROUND
                          Medicaid Program
                          Medicaid is a jointly funded Federal and State health insurance
                          program for certain low income and medically needy people. Individual
                          States establish eligibility requirements, benefits packages, and
                          payment rates for their Medicaid programs under broad Federal
                          standards administered by the Centers for Medicare & Medicaid
                          Services (CMS). Medicaid requirements mandate that States provide
                          basic services to beneficiaries to receive Federal matching funds. States
                          may also receive Federal funding if they provide other optional services.
                          One universally offered optional service is prescription drug coverage.
                          All 50 States and the District of Columbia currently offer prescription
                          drug coverage under the Medicaid program. In calendar year 2003,
                          CMS estimates that Medicaid payments for prescription drugs totaled
                          over $34 billion.1
                          Medicaid Drug Reimbursement Methodology
                          Each State is required to submit a Medicaid State plan to CMS
                          describing its payment methodology for covered drugs. Federal
                          regulations require, with certain exceptions, that each State’s
                          reimbursement for a drug not exceed the lower of its estimated
                          acquisition cost plus a reasonable dispensing fee or the provider’s usual
                          and customary charge to the public for the drug.

                          CMS allows States flexibility to define estimated acquisition cost. Most
                          States base their calculation of estimated acquisition cost on a drug’s
                          average wholesale price (AWP) discounted by a certain percentage. As
                          of the first quarter of 2005, this discount ranged from 5 to 50 percent of
                          the AWP. A small number of States use wholesale acquisition costs plus
                          a percentage markup rather than, or in addition to, discounted AWPs
                          when determining estimated acquisition cost.

                          1 This amount includes both the Federal and State shares of payments. Rebates collected
                             under the Medicaid Drug Rebate program have not been subtracted from the total.



    OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   1
I N T R O D        U C T                I O N

                       For certain drugs, States also use the Federal upper limit and/or State
                       maximum allowable cost programs in determining reimbursement
                       amounts. CMS has established Federal upper limit amounts for more
                       than 400 drugs. In addition, numerous States have implemented a
                       maximum allowable cost program to limit reimbursement amounts for
                       certain drugs. Individual States determine the types of drugs that are
                       included in their maximum allowable cost programs and the methods by
                       which the maximum allowable cost for a drug is calculated.

                       In summary, States use a variety of mechanisms when setting drug
                       reimbursement amounts. In most cases, States reimburse for a drug at
                       the lower of the estimated acquisition cost, the Federal upper limit
                       amount, or the State maximum allowable cost, plus a reasonable
                       dispensing fee.
                       Federal Upper Limit Program
                       According to CMS’s “State Medicaid Manual,” the Federal upper limit
                       program was created to ensure that the Federal Government acts as a
                       prudent payer by taking advantage of current market prices for
                       multiple-source drugs. Under 42 CFR § 447.332, CMS is to establish a
                       Federal upper limit amount for a drug when: (1) all formulations of a
                       drug have been rated as therapeutically equivalent by the Food and
                       Drug Administration (FDA), and (2) at least three suppliers of the drug
                       are listed in current editions (or updates) of the published compendia of
                       cost information for drugs available for sale nationally. Section 4401 of
                       the Omnibus Budget Reconciliation Act of 1990 (OBRA ’90) established
                       new criteria requiring a drug to be included on the Federal upper limit
                       list when three or more versions of a drug had been rated
                       therapeutically and pharmaceutically equivalent by FDA, regardless of
                       the ratings of other versions.2 FDA designates drugs that are
                       therapeutically equivalent as “A-rated.”

                       Federal regulation (42 CFR § 447.332) sets the Federal upper limit
                       amount at 150 percent of the published price for the least costly,
                       therapeutically equivalent product that can be purchased by
                       pharmacists in quantities of 100 tablets or capsules plus a reasonable


                       2 According to the “State Medicaid Manual,” the language of OBRA ’90 “augments” the

                          upper limits established by the regulation and creates “new criteria” for adding drugs to
                          the Federal upper limit list. CMS has not modified the language of the regulation since it
                          was promulgated in 1987, nor has the regulation been withdrawn. In practice, CMS relies
                          on the language of the regulation and the OBRA ’90 provisions in establishing Federal
                          upper limits.



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   2
I N T R O D        U C T                I O N

                       dispensing fee. If the drug is not typically available in quantities of
                       100 or if the drug is a liquid, the Federal upper limit amount is based on
                       a commonly listed size.

                       CMS applies an additional standard in determining which drugs should
                       be subject to Federal upper limits. According to CMS staff, only drugs
                       for which a Federal upper limit could potentially lead to savings should
                       be included on the Federal upper limit list. Therefore, if a drug does not
                       have a published price that, when multiplied by 150 percent, is lower
                       than the AWP, CMS does not include the product.

                       CMS publishes the Federal upper limit list in the “State Medicaid
                       Manual” and on its Web site.3 Any revisions to the Federal upper limit
                       list are typically noted on the Web site as well. CMS establishes an
                       upper limit for specific forms and strengths for each multiple-source
                       drug on the list. The Federal upper limit list also provides the source of
                       the pricing information used to calculate the upper limit amount for
                       each drug.
                       The Medicaid Drug Rebate Program and Average Manufacturer Price
                       For the covered outpatient drugs of a manufacturer to be eligible for
                       Federal matching funds under Medicaid, section 1927(a)(1) of the Social
                       Security Act (the Act) mandates that the manufacturer must enter into
                       a rebate agreement with CMS and pay quarterly rebates to States.
                       Under these rebate agreements and the law, manufacturers must
                       provide CMS with the average manufacturer price (AMP) for each of
                       their covered drugs on a quarterly basis. Pursuant to section 1927(k)(1)
                       of the Act, the AMP is defined as the average price paid to a
                       manufacturer for a drug in the United States by wholesalers for drugs
                       distributed to the retail pharmacy class of trade, net of customary
                       prompt pay discounts. The AMP is calculated as a weighted average of
                       prices for all of a manufacturer’s package sizes of a drug sold during a
                       given quarter. Section 1927(b)(3)(D) of the Act requires that, subject to
                       certain exceptions, AMPs reported to CMS should not be publicly
                       disclosed.

                       In a December 2004 report, the Congressional Budget Office used the
                       AMP to estimate what pharmacies pay to acquire drugs. While the
                       acquisition costs for pharmacies that buy through wholesalers rather
                       than directly from manufacturers may exceed the AMP, the wholesaler


                       3   www.cms.hhs.gov/medicaid/drugs/drug10.asp


 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   3
I N T R O D        U C T                I O N

                       markup is estimated to be a small proportion (approximately 3 percent)
                       of the actual price.4 The Medicare Prescription Drug, Improvement,
                       and Modernization Act of 2003 (MMA) also recognizes the AMP as a
                       potential measure to be substituted in Medicare reimbursement
                       calculations.5
                       Related Work by the Office of Inspector General
                       In June 2005, the Office of Inspector General (OIG) issued “Comparison
                       of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                       Prices” (OEI-03-05-00110). OIG found that, overall, Federal upper
                       limits were five times higher than the average AMPs for generic drug
                       products in the third quarter of 2004. During the same period, the
                       Federal upper limit amount was, on average, 22 times higher than the
                       lowest reported AMP and usually exceeded even the highest reported
                       AMP. Medicaid could save hundreds of millions of dollars a year by
                       basing Federal upper limit amounts on reported AMPs. We
                       recommended that CMS work with Congress in an effort to lower
                       Federal upper limit amounts.

                       In December 2004, OIG issued “Addition of Qualified Drugs to the
                       Medicaid Federal Upper Limit List” (OEI-03-04-00320). OIG found that
                       CMS does not add qualified drugs to the Federal upper limit list in a
                       timely manner. Of the 252 first-time generic drugs approved between
                       January 2001 and December 2003, 109 drugs met the criteria for
                       inclusion on the Federal upper limit list; however, only 25 of these drugs
                       were actually added. For the 25 that were added, CMS took an average
                       of 36 weeks to place the products on the Federal upper limit list once
                       the drugs were qualified for inclusion. Qualified drugs not being added
                       to the list in a timely manner cost the Medicaid program an estimated
                       $167 million between 2001 and 2003. We recommended that CMS
                       establish an administrative procedure and schedule to govern the
                       determination and publication of Federal upper limits.

                       In February 2004, OIG issued “Omission of Drugs from the Federal
                       Upper Limit List in 2001” (OEI-03-02-00670). OIG found that 90 drug
                       products were not included on the Federal upper limit list in

                       4 As reported by the National Association of Chain Drug Stores in the Congressional Budget
                          Office report, “Medicaid’s Reimbursement to Pharmacies for Prescription Drugs.”

                       5 Medicare typically uses the manufacturer reported average sales price (ASP) plus 6
                          percent as the basis for drug reimbursement. However, if the ASP for a drug exceeds the
                          AMP by a threshold percentage, section 303 of the MMA allows the program to base
                          reimbursement on 103 percent of the AMP instead. In 2005, this threshold is 5 percent.



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   4
I N T R O D        U C T                I O N

                       2001 despite meeting the criteria established by Federal laws and
                       regulations. Medicaid could have saved $123 million in 2001 by adding
                       55 of the 90 drug products to the Federal upper limit list. OIG
                       recommended that CMS take steps to ensure that all drugs meeting the
                       criteria set by Federal laws and regulations are included on the Federal
                       upper limit list.

                       In October 2003, OIG issued “State Strategies to Contain Medicaid Drug
                       Costs” (OEI-05-02-00680). OIG found that States employ three main
                       drug cost containment strategies: (1) limiting Medicaid reimbursement
                       for drugs; (2) shifting use from higher to lower cost drugs; and
                       (3) limiting the amount of prescription drugs a beneficiary can obtain.
                       States reported facing challenges in their attempts to maximize drug
                       cost savings, including a lack of accurate drug price information and
                       stakeholder opposition to cost containment efforts.

                       In September 2002, OIG issued “Medicaid Pharmacy - Additional
                       Analyses of the Actual Acquisition Cost of Prescription Drug Products”
                       (A-06-02-00041). The audit found that there was a wide range of
                       discounts from the AWP for pharmacy purchases depending on the
                       category of drug that is being purchased. For multiple-source drugs
                       included on the Federal upper limit list, OIG estimated that pharmacy
                       acquisition costs were 72.1 percent below the AWP.
                       Recent Interest in Medicaid Drug Pricing Issues
                       In June 2005, the U.S. Senate Committee on Finance held a hearing
                       entitled “Medicaid Fraud, Waste, and Abuse: Threatening the Health
                       Care Safety Net.” Excessive payments for Medicaid-covered drugs was
                       a major focus area. Representatives from OIG, CMS, the Department of
                       Justice, State Medicaid agencies, and the drug industry provided
                       testimony.
                       In December 2004, the U.S. House Committee on Energy and Commerce
                       Subcommittee on Oversight and Investigations held a hearing entitled
                       “Medicaid Prescription Drug Reimbursement: Why the Government
                       Pays Too Much.” Representatives from OIG, CMS, several State
                       Medicaid agencies, and the drug industry testified at this hearing. The
                       role that Federal upper limits play in reducing costs for prescription
                       drugs was a key area of interest to the subcommittee.

                       The President’s 2006 budget proposes changes that would cause
                       Medicaid reimbursement amounts to more closely approximate
                       pharmacy acquisition costs. Specifically, the budget recommends that



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   5
I N T R O D        U C T                I O N

                       Medicaid reimbursement for prescription drugs be at 106 percent of a
                       drug’s ASP.

                       Prior to 2005, Medicare, like Medicaid, based drug reimbursement on
                       published AWPs. However, due in part to numerous reports by OIG
                       and the Government Accountability Office (GAO) that found that AWPs
                       were significantly inflated, Congress required that Medicare begin
                       basing reimbursement amounts on 106 percent of the ASP instead.
                       Section 303 of the MMA defines the ASP as the manufacturer’s sales to
                       all purchasers (with certain exemptions) divided by the number of units
                       sold. The ASP is to be net of chargebacks, discounts, rebates, and other
                       price concessions. ASPs are reported to CMS by drug manufacturers.


                       METHODOLOGY
                       Identifying Drugs Not Included Due to Pricing Issues
                       In our December 2004 report, “Addition of Qualified Drugs to the
                       Medicaid Federal Upper Limit List” (OEI-03-04-00320), we identified all
                       first-time generic drug products approved between 2001 and 2003 that
                       met the statutory and regulatory criteria for being included on the
                       Federal upper limit list. During our analysis, we determined that a
                       number of these drugs did not meet CMS’s additional pricing criterion.
                       Each of these products had at least three A-rated versions and three
                       suppliers, but did not have any published prices that when multiplied
                       by 150 percent were less than the AWP. None of these drugs had been
                       included on the Federal upper limit list as of June 30, 2004.

                       Using data obtained from a national drug compendium, we compiled a
                       list of all the national drug codes (NDC)6 associated with generic
                       versions of each drug product not included on the Federal upper limit
                       list during the first and second quarters of 2004 due to a failure to meet
                       CMS’s additional pricing criterion. For each of these drug products, we
                       calculated the average AWP among all therapeutically equivalent NDCs
                       in the proper package size listed in the compendium. We also calculated
                       the Federal upper limit amount that would have been set for each drug
                       product under the required formula by multiplying the lowest published
                       price among all relevant NDCs by 150 percent.



                       6 Each individual drug product manufactured or distributed in the United States has a

                          unique NDC. An NDC identifies the manufacturer of the drug product, the product
                          dosage form, and the package size.



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   6
I N T R O D        U C T                I O N




                       Obtaining Medicaid Utilization Data
                       We downloaded 50 State Medicaid payment and utilization files for
                       2004 from CMS’s Web site.7 We limited our analysis to utilization
                       occurring in the first or second quarters of 2004.8
                       The total State reimbursement amount listed in the State utilization
                       files included both the payments made for the NDC and the dispensing
                       fees paid to the pharmacy. To determine a State’s reimbursement for
                       the drug product only, we removed the amount paid in dispensing fees
                       for each corresponding NDC. We then calculated the average Medicaid
                       reimbursement amount per quarter for each of the drugs under review
                       by dividing the total reimbursement for the product (without the
                       dispensing fee) by the total number of units reimbursed.
                       Determining AMPs for Drugs Under Review
                       We obtained AMP data for the first and second quarters of 2004 from
                       CMS. We matched those data against the Medicaid utilization data to
                       verify that all products upon which the comparisons would be made had
                       actually been reimbursed by Medicaid.

                       Federal regulations require that the prices on which Federal upper limit
                       amounts are based be for therapeutically equivalent (A-rated) products
                       in common package sizes. Therefore, we removed from the analysis any
                       NDCs that represented drug products that were not A-rated. We also
                       determined the most common package size listed in the compendium,
                       and removed any NDCs that did not match this package size. We then
                       calculated the minimum, average, and maximum AMPs among the
                       remaining NDCs in each quarter for the drug products not included on
                       the Federal upper limit list due to inflated published prices.9
                       Calculating Potential Savings
                       To determine the potential savings if CMS were able to use AMPs
                       rather than published prices to set Federal upper limit amounts, we:


                       7 The 50 files represent 49 States and the District of Columbia. Arizona’s data were not
                          available for download because the State’s drug benefit is administered completely
                          through managed care organizations and not the traditional fee-for-service system.
                       8 Both first- and second-quarter utilization data for Delaware and Rhode Island were
                          missing from CMS’s files. Second-quarter utilization data were missing for Colorado and
                          Vermont.
                       9 Two drug products under review did not have any AMPs listed on CMS’s first quarter

                          AMP file. One of the two products also did not have AMPs listed on the second quarter
                          file. These products were excluded from any calculations in the respective quarter(s).



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   7
I N T R O D        U C T                I O N

                       (1) multiplied the minimum, average, and maximum AMPs for the
                           reviewed drugs by 150 percent (the percentage stated in current
                           regulation);

                       (2) subtracted 150 percent of the minimum, average, and maximum
                           AMPs from the average Medicaid reimbursement amount (net of
                           dispensing fees) in each of the first two quarters of 2004; and

                       (3) multiplied the difference calculated in step 2 by the number of units
                           of the drug product reimbursed during these two quarters.

                       This figure provided us with the savings that could have resulted in just
                       two quarters for drugs that were not included on the Federal upper
                       limit list due to not meeting CMS’s additional criterion.10
                       This evaluation was conducted in accordance with the “Quality
                       Standards for Inspections” issued by the President’s Council for
                       Integrity and Efficiency and the Executive Council for Integrity and
                       Efficiency.




                       10 Nine of the drug products did not become eligible for the Federal upper limit list until

                          April 1, 2004. Therefore, these drugs were only included in the savings calculations for
                          the second quarter of that year.



 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   8
 Δ        F I N D I N G S 



 In the first two quarters of 2004, 58 drug products                Of the 252 first-time generic
 that met all statutory and regulatory requirements                 drug products approved between
were not added to the Federal upper limit list due to               2001 and 2003, 58 met all
                                                                    statutory and regulatory
                            inflated published prices
                                                                    requirements as of June 30,
                            2004, but were not included on the Federal upper limit list because their
                            addition would not have lead to savings. Each of these 58 products had
                            at least 3 A-rated versions and 3 suppliers, but did not have a published
                            price that, when multiplied by 150 percent, was less than the AWP.11
                            Overall, average AWPs were more than three times higher than the
                            average AMPs for the reviewed drug products in the second quarter of
                            2004. Among the 58 individual drug products, the average AWP
                            exceeded the average AMP by as much as 10 times. Even the minimum
                            published prices for these drugs were substantially higher than AMPs.
                            On average, the lowest manufacturer-reported AWP or wholesale
                            acquisition cost was almost two-and-a-half times the average AMP.
                            Given that Federal regulation requires that these “minimum” published
                            prices be multiplied by 150 percent, the difference between Federal
                            upper limit amounts and AMPs would grow even wider.



      Basing Federal upper limit amounts on AMPs                 As the previous finding shows,
    could save Medicaid over $100 million per year               inflated published prices are
                                                                 causing CMS to exclude otherwise
     by allowing otherwise qualified products to be
                                                                 qualified drug products from the
             included on the Federal upper limit list
                                                                 Federal upper limit list because
                            their Federal upper limit amount would exceed the reimbursement
                            amount set under the usual methods. However, if Medicaid based
                            Federal upper limit amounts on 150 percent of the average reported
                            AMP rather than 150 percent of the lowest published price, the program
                            may have saved $75 million in just two quarters of 2004 due to these
                            excluded drugs being added to the Federal upper limit list. Ten versions
                            of two drugs were responsible for more than half of the $75 million in

                            11 For 50 of the 58 drug products, both wholesale acquisition costs and AWPs were

                                 published in the compendium. Although wholesale acquisition costs are generally lower
                                 than the AWP, none of the published wholesale acquisition costs for these 58 drugs was
                                 low enough to result in a Federal upper limit amount that could potentially lead to
                                 savings; i.e., 150 percent of the lowest wholesale acquisition cost was not less than the
                                 AWP.



      OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   9
F   I N D I N G             S

                          potential savings. Adding six versions of amoxicillin/potassium
                          clavulanate at 150 percent of their average AMP would have saved
                          almost $21 million in the first and second quarters of 2004. Adding four
                          versions of paroxetine would have saved nearly $19 million in just the
                          one quarter that it was qualified.12
                          Furthermore, if Medicaid used the lowest reported AMP multiplied by
                          150 percent when calculating Federal upper limit amounts, the program
                          could have saved an estimated $111 million in just two quarters of 2004.
                          Even if Federal upper limit calculations were based on 150 percent of
                          the highest reported AMP, the program could have saved almost
                          $39 million.




                          12 According to our analysis, paroxetine (brand name Paxil) first qualified for the Federal
                                upper limit list on April 1, 2004. Four versions of paroxetine were added to the Federal
                                upper list on February 14, 2005. While the Federal upper limit amounts for the four
                                versions were slightly below their average AWP, the amounts were at least 20 percent
                                higher than average Medicaid reimbursement for the products in the second quarter of
                                2004. Therefore, adding paroxetine at 150 percent of its lowest published price (the
                                current method) is unlikely to save Medicaid a significant amount.



    OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   10
F   I N D I N G             S
Δ       C O N C L U S I O N                                                



                          In the past several months, the President, Congress, and individual
                          State Medicaid programs have expressed heightened interest in
                          ensuring that Medicaid drug reimbursement amounts more closely
                          resemble actual acquisition costs. In addition, the OIG has recently
                          released a number of reports that once again showed that the published
                          prices used as the basis for Medicaid reimbursement bear little or no
                          resemblance to prices based on actual sales, especially for generic drugs.
                          The Federal upper limit program is particularly affected by this
                          disconnect between published prices and acquisition costs among
                          generic drugs.

                          Congress created the Federal upper limit program to help Medicaid take
                          advantage of current market prices for lower-cost generic drugs.
                          However, Federal regulation requires that Federal upper limit amounts
                          be based on 150 percent of the prices published in national compendia.
                          Not only does the pricing methodology prescribed by Federal law cause
                          artificially high Federal upper limit amounts for those products on the
                          Federal upper limit list, it also causes other qualified drugs to never be
                          included on the list in the first place. This secondary effect is costing
                          Medicaid millions of dollars per year, in addition to the considerable
                          losses the program faces due to the inflated prices of drugs already on
                          the Federal upper limit list.

                          Based on years of work by OIG, GAO, and others revealing the inflated
                          nature of AWPs and other published prices, the Medicare program
                          eliminated the use of AWP in its pricing methodology for Part B covered
                          drugs. The fact that Medicaid still uses these published prices to
                          determine Federal upper limit amounts makes little sense. We believe
                          that reimbursement in general and Federal upper limit amounts in
                          particular should reliably reflect the actual costs of drugs to
                          pharmacies. Consequently, there is an urgent need for the Medicaid
                          policymaking community to revise Federal upper limit policies, thereby
                          ensuring that reimbursement amounts for generic drugs accurately
                          reflect market prices, and that the Federal upper limit program better
                          meets its original intent.
                          Agency Comments
                          CMS concurred with our findings, stating that the use of published
                          prices as the basis for Federal upper limit amounts precludes the
                          addition of some drugs to the Federal upper limit list. CMS also
                          noted the recent changes to the basis of reimbursement for Medicare


    OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   11
C O   N C L        U S I O               N

                        drugs made by the MMA, and indicated that the same types of
                        measures should be enacted for Medicaid. The full text of CMS’s
                        comments is presented in Appendix A.
                        OIG Response
                        OIG appreciates CMS’s comments on this report, and looks forward to
                        assisting CMS and Congress in their efforts to reform Medicaid’s
                        current reimbursement methodology.




 OEI-03-05-00350    H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   12
A P P E N D I X                           ~            A



      Comments from the Centers for Medicare & Medicaid Services




 OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   13
A   P   P E N D        I X               ~           A




    OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   14
Δ   A C K N O W L E D G M E N T S                                                                              

    This report was prepared under the direction of Robert A. Vito, Regional Inspector
    General for Evaluation and Inspections in the Philadelphia regional office, and Linda
    M. Ragone, Deputy Regional Inspector General. Other principal Office of Evaluation
    and Inspections staff who contributed include:

    David Tawes, Team Leader
    Linda Boone Abbott, Program Specialist

    Tricia Davis, Director, Medicare and Medicaid Branch




OEI-03-05-00350   H O W I N F L AT E D P U B L I S H E D P R I C E S A F F E C T D R U G S C O N S I D E R E D F O R T H E F E D E R A L U P P E R L I M I T L I S T   15
